WAIVER

SUPREME COURT OF THE UNITED STATES

 

No. 21-352

 

2 Te RS ESE EY ESA LT PER et ei NET ek OY Re EH ENE oe oe ee a a eT

Gonzales | Madigan, et al.

(Petitioner) V. ‘Gexondead.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© _ Iam filing this waiver on behalf of all respondents.

(e) I only a ance some see Tam pone this waiver on behalf of the lene cE

Shaw Decremer

Please check the appropriate box:
© I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
O I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

ane e lipo Keb fo

  
 
 

 

(Type or print) Name Michael Kreloft
© Mr. O71 a O01 bie © Miss
Firm Michael Kreloff, Attorney at Law

(etre ee Pe EE ST SS TT TW a PE ETN A ee re me rg tne nae ne rere ee att a et

Address 3710 Commercial Ave. Ste. 5

 

City &State Northbrook, kL s—s—~sSsS ip 6006 :
Phone 847- 525-1139 ie | Email capitolaction@yahoo.c com oe |

 

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Anthony J. Peraica, Stephen F. Boulton, Jennifer M. Hill, Anthony J. Peraica & Associates, Ltd. =

CC:
